iA

'X

!

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF OREGON
PORTLAND DIVISION

MEGAN ELIZABETH KYTE,
Petitioner,
v.

No. 3:18-cv-00649-SB
JUDGMENT

ROB PERSSON,
!

Respondent.
MOSMAN, J.,
Based upon the Order of the Court [ECF 63], it is ordered and adjudged that the

j
|

Amended Petition for Writ of Habeas Corpus [ECF 34] is DENIED. The case is DISMISSED
with prejudice.

DATED this? f day of October, 2020.

•:

MICHAEL MMOSMAN
United States District Judge

1-JUDGMENT

t
i

\X
;
;
!

IN THE UNITED STATES DISTRICT COURT
;

»
i
i

FOR THE DISTRICT OF OREGON
1

PORTLAND DIVISION
i

:

i

i

!
;

MEGAN ELIZABETH KYTE,
i

S

No. 3:18-cv-00649-SB

Petitioner>

;

V,

OPINION AND ORDER

i

ROB PERSSON,
Respondent.
MOSMAN, J.,

!

; On July 27, 2020, Magistrate Judge Stacie F. Beckerman issued her Findings and
Recommendation (F&R) [ECF 52]. Judge Beckerman recommended that I DENY Petitioner’s
Amended Petition for Writ of Habeas Corpus [ECF 34] and decline to issue a Certificate of
'

Appealability. Petitioner Megan Elizabeth Kyte filed objections [ECF 61] and Respondent Rob
;

;

i

r

Persson filed a response [ECF 62]. Upon review, I agree with Judge Beckerman and DISMISS
this case with prejudice.
;

DISCUSSION
1

i

The magistrate judge makes only recommendations to the court, to which any party 'may
!I

file written obj ections. The court is not bound by the recommendations of the magistrate judge,
but retains responsibility for making the final determination. The court is generally required to
i

make a de novo determination regarding those portions of the report or specified findings of
;
)

1 - OPINION AND ORDER
5

f

B

'TZ i/\

;>

y

recommendation as to which an objection is made. 28 U.S.C. § 636(b)(1)(C). However, the court
!

is not Required to review, de novo or under any other standard, the factual or legal conclusions of
the magistrate judge as to those portions of the F&R to which no -objections are addressed. See
Thomas v. ^m, 474 U,S. 140, 149 (1985); United States v. Reyna-Tapia, 328 F.3d 1114,1121

.. n

: . ;

(9th Cir. 2003). While the level of scrutiny under which I am required to review the F&R
depends on whether or not objections have been filed, in either case, I am free to accept, reject,
;

;

or modify any part of the F&R. 28 U.S.'C. § 636(b)(1)(C).
CONCLUSION
Upon review, I agree with Judge Beckerman’s recommendation and I ADOPT the F&R
[EGF 52] as my own opinion. Ms. Kyte’s Amended Petition for Writ of Habeas Corpus [EOF 34]

I '

.

.

is DEFIED and I decline to issue a Certificate of Appealability. The case is DISMISSED with
prejudice.5
IT IS SO ORDERED.

!

l

!

DATED this ^day of October, 2020.
:

*!
•i

/yc—

MICHAEL W/NfOSMAN
United States/District Judge

i

!

i
i

!

!
:
•.!!

5

•:

i!

2 - OPINION AND ORDER
1

IN THE COURT OF APPEALS OF THE STATE OF OREGON
STATE OF OREGON
Plaintiff-Respondent,
v.
MEGAN ELIZABETH KYTE
Defendant-Appellant.

Clackamas County Circuit Court
CR1401922
A159572
APPELLATE JUDGMENT

Katherine E. Weber, Judge.
Submitted on August 4, 2017.
Before Ortega, Presiding Judge; Garrett, Judge; and Powers, Judge.
Attorney for Appellant: Megan Elizabeth Kyte, pro se.
Attorney for Respondent: Carson L. Whitehead.
AFFIRMED WITHOUT OPINION

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party: Respondent
[ ] No costs allowed.

Appellate Judgment
Effective Date: February 23, 2018

Court of Appeals
(seal)

fmc

APPELLATE JUDGMENT
REPLIES'SHOULD BE DIRECTED TO: State Court Administrator, Records Section
Supreme Court Building, 1163 State St, Salem OR 97301-2563
Page 1 of 1

Case: 20-35983, 04/20/2021, ID: 12080961, DktEntry: 7, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 20 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

MEGAN ELIZABETH KYTE,
Petitioner-Appellant,
v.
ROB PERSSON,

No.

20-35983

D.C. No. 3:18-cv-00649-SB
District of Oregon,
Portland
ORDER

Respondent-Appellee.
Before:

GRABER and TALLMAN, Circuit Judges.

The request for a certificate of appealability (Docket Entry No. 2) is denied
because appellant has not shown that “jurists of reason would find it debatable
whether the petition states a valid claim of the denial of a constitutional right and
that jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000); see also 28
U.S.C. § 2253(c)(2); Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012); Miller-El v.
Cockrell, 537 U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 1 of 18

i

IN THE UNITED STATES DISTRICT COURT
DISTRICT OF OREGON

Case No. 3:18-cv-00649-SB

MEGAN ELIZABETH KYTE,

FINDINGS AND
RECOMMENDATION

Petitioner,
v.
ROB PERSSON,
Respondent.
' BECKERMAN, U.S. Magistrate Judge.
i

Petitioner Megan Elizabeth Kyte (“Petitioner”) filed this habeas corpus proceeding
pursuant to 28 U.S.C. § 2254. For the reasons that follow, the district judge should deny the
Amended Petition for Writ of Habeas Corpus (ECF No. 34) (the “Amended Petition”), and
decline to issue a certificate of appealability.

BACKGROUND
On November 4, 2014, a Clackamas County grand jury returned an indictment charging
Petitioner with four counts of Burglary in the FirstDegree, twelve counts of Identity Theft, three

PAGE 1 - FINDINGS AND RECOMMENDATION'

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 2 of 18

counts of Theft in the Second Degree, and one count of Theft in the Third Degree. Resp’t Ex.
116 at 37-41. All charges arose out of several incidents in which Petitioner broke into a home,
stole cash and a credit card from the homeowner’s wallet, and subsequently used the stolen credit
card to make purchases at various stores in the Portland area. Resp’t Ex. 111 at 25-34.
The Clackamas County Circuit Court initially set Petitioner’s trial for December 17,
2014. Resp’t Ex. 103 at 2. In the week leading up to the scheduled trial date, defense counsel
moved for a continuance, citing the need for additional time to prepare Petitioner’s defense and
r to obtain an evaluation of Petitioner’s mental health. Resp’t Exs. 104 at 2; 105 at 3. At a hearing
on the motion on December 17, 2014, the trial court noted that Petitioner had signed a waiver of
her right to a speedy trial, to which Petitioner objected. Resp’t Ex. 105 at 2. Petitioner protested
that she had been in custody for fifty days without access to the evidence against her, and stated
that she wanted to fire her attorney. Id. at 3-4. The trial court nevertheless filed Petitioner’s
signed waiver, explaining that while Petitioner did not “agree[] to it here in the moment,” a
continuance was necessary to investigate her ability to aid and assist in her defense, and to
determine whether the circumstances warranted defense counsel’s withdrawal. Id. at 4, 6. The
trial court reset Petitioner’s trial to begin February 10, 2015. Id. at 7.
On January 12, 2015, defense counsel withdrew as Petitioner’s attorney of record, citing
an irreparable breakdown of the attorney-client relationship. Resp’t Ex. 107 at 2. On January 20,
2015, Petitioner moved for appointment of new counsel. Resp’t Ex. 108 at 2. The trial court
granted Petitioner’s motion on the same day, and appointed John Gutbezahl (“Gutbezahl”) to
represent Petitioner at trial. Resp’t Ex. 110 at 2.
On February 10, 2015, Gutbezahl moved to continue the trial date. Id. at 2. Petitioner
objected, denying that she had waived her rights:

PAGE 2 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 3 of 18

So I — I didn’t — I’m not - when they asked for an extension, I didn’t want the
first extension. I explained that. I was not given discovery the first 50 days it was.
I was not told the terms of the extension. I mean, I wasn’t even explained my
original plea deal by this original attorney. And now, I have to sit here and wait
for you guys to get me an attorney who explains things to me? So I’ve not been
given proper or adequate defense at all, and I’ve been sitting here for over 100
days.
Id. The trial court evaluated Petitioner’s objection pursuant to Oregon’s speedy trial statute, Or.
Rev. Stat. § 136.295, which permits a second extension of a criminal defendant’s pretrial
custody and postponement of the trial date for up to sixty days upon a showing of good cause,
provided the extension will not cause the defendant to be detained longer than 180 days. Id. at 3.
Citing Gutzbezahl’s recent appointment and the complex nature of the case, the trial court
determined good cause existed to warrant a sixty-day continuance. Id. at 3-4. The trial court
observed that an additional sixty days would not extend Petitioner’s pretrial custody beyond the
180-day limit imposed by Or. Rev. Stat. § 136.295, but noted that any additional extensions
would likely require Petitioner’s express consent. Id. at 4.
Trial began on April 7, 2015. Resp’t Ex. 111 at 1. Outside of the presence of the jury,
Petitioner again protested that she had not been allowed to review the discovery in her case, and
she requested that Gutzbezahl withdraw as counsel. Resp’t Ex. 112 at 9. Petitioner also grieved
the pretrial delay, speculating that the prosecution had gathered additional evidence against her
in the interim:
It’s my belief that the February 10th extension -- it’s possible that the prosecution
did acquire three new surveillance tapes in this ID theft. I have not wanted one
extension since I’ve been here. I’ve been lied to by these attorneys, given
extensions I don’t want. I wanted to go to trial. I rejected my plea.
Id. Commending Gutzbezahl’s performance and noting that his withdrawal “would be extremely
disruptive to the trial [and] extremely confusing to the jury,” the trial court denied Petitioner’s
request to proceed pro se. Id. at 11-12.
PAGE 3 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 4 of 18

On April 9, 2015, the jury found Petitioner guilty on all counts.1 Resp’t Ex. 113 at 3-4.
The trial judge later sentenced Petitioner to a custodial term of sixty months, followed by thirtysix months of post-prison supervision. Resp’t Ex. 101.
Petitioner appealed pro se. Resp’t Ex. 116. In her appellate brief, Petitioner set forth
numerous assignments of error, challenging, among other things, the sufficiency of the evidence
and pre-trial delay. Id. at 2-6. The Oregon Court of Appeals affirmed Petitioner’s convictions
without opinion, and the Oregon Supreme Court denied review. State v. Kyte, 287 Or. App. 696,
rev. denied, 362 Or. 289 (2018). Petitioner did not seek post-conviction relief.
On April 16, 2018, Petitioner filed a pro se Petition for Writ of Habeas Corpus in this
Court. On June 13, 2019, appointed counsel filed an Amended Petition, asserting three grounds
for relief:
(a)

[Petitioner’s] conviction was obtained in violation of the Fourteenth
Amendment to the United States Constitution, as interpreted in Jackson v.
Virginia, 443 U.S. 307 (1979), because there was insufficient evidence to
sustain the convictions on Counts 1, 2, 3, 4, 5, 9, and 12.

(b)

[Petitioner’s] rights under the due process clause of the Fourteenth
Amendment to the United States Constitution were violated when
witnesses who were not examined by the grand jury testified against
[Petitioner], and she was not provided sufficient notice prior to trial.

(c)

[Petitioner’s] rights under the Sixth Amendment to the United States
Constitution were violated when she was denied a speedy trial.

Am. Pet. (ECF No. 34). Respondent urges the Court to deny habeas relief because Petitioner
failed fairly to present any of the grounds for relief alleged in the Amended Petition to the
Oregon Supreme Court, and they are now procedurally defaulted. Resp. Am. Pet. (ECF No. 39)
at 4-8. Additionally, Respondent argues that to the extent Petitioner properly exhausted Ground

1 The jury did not consider Count 19, Identity Theft, because the trial court dismissed it
prior to trial. Resp’t Ex. Ill at 9.
PAGE 4 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 5 of 18

(c), the state court decision denying relief was neither contrary to, nor an unreasonable
application of, clearly established federal law and is entitled to deference. Id. at 8-11. In her
Supporting Brief, Petitioner addresses Respondent’s arguments as to Ground (c) only.
DISCUSSION
I.

EXHAUSTION AND PROCEDURAL DEFAULT
A.

Legal Standards

An individual in state custody generally must exhaust all available remedies in state
court, either on direct appeal or through collateral proceedings, before a federal court may
consider granting habeas relief. 28 U.S.C. § 2254(b)(1); Smith v. Baldwin, 510 F.3d 1127, 1137
(9th Cir. 2007) (noting that a prisoner must first exhaust available remedies before a federal court
may consider the merits of a habeas petition); Carter v. Giurbino, 385 F.3d 1194, 1196 (9th Cir.
2004) (holding that a state prisoner must fairly present all claims to the highest state court before
seeking habeas relief) (citing Picard v. Connor, 404 U.S. 270, 278 (1971)). A habeas petitioner
satisfies the exhaustion requirement “by fairly presenting the federal claim to the appropriate
state courts ... in the manner required by the state courts, thereby ‘affording] the state courts a
meaningful opportunity to consider allegations of legal error.’” Casey v. Moore, 386 F.3d 896,
915-16 (9th Cir. 2004) (quoting Vasquez v. Hillery, 474 U.S. 254, 257 (1986) (alteration in
original)).
A fair presentation requires that the petitioner made ‘“reference to a specific federal
constitutional guarantee, [and included] a statement of the facts that entitle [him or her] to
relief.’” Dickens v. Ryan, 740 F.3d 1302, 1317 (9th Cir. 2014) (quoting Gray v. Netherland, 518
U.S. 152, 162-63 (1996)). The presentation of a federal claim “for the first and only time in a
procedural context in which its merits will not be considered unless there are special and

PAGE 5 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB Document 52 Filed 07/27/20 Page 6 of 18

important reasons” for doing so does not satisfy the exhaustion requirement. Castille v. Peoples,
489 U.S. 346, 351 (1989); see also Roettgen v. Copeland, 33 F.3d 36, 38 (9th Cir. 1994) (noting
that the submission of “a new claim to the state’s highest court in a procedural context in which
its merits will not be considered absent special circumstances does not constitute fair
presentation”).
If the petitioner fails fairly to present her federal claims to the highest state court, and
state procedural rules now bar their consideration, the claims are procedurally defaulted. Hurles
v. Ryan, 752 F.3d 768, 779-80 (9th Cir. 2014) (holding that the petitioner procedurally defaulted
his claims because he failed to present his claims to the Arizona Supreme Court, and if presently
raised, the claims would be dismissed as waived); see also O’Sullivan v. Boerckel, 526 U.S. 838,
845, 848 (1999) (holding that the petitioner failed to present three of his claims to the Illinois
Supreme Court in a timely fashion and therefore procedurally defaulted those claims). An
individual in state custody is barred from raising procedurally defaulted claims in federal court
unless he “can demonstrate cause for the default and actual prejudice as a result of the alleged
violation of federal law or demonstrate that failure to consider the claims will result in a
fundamental miscarriage ofjustice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991).
B.

Analysis

In Ground (c), Petitioner alleges that the pretrial delay violated her Sixth Amendment
right to a speedy trial. Specifically, Petitioner contends that an almost six-month delay between
indictment and trial is presumptively prejudicial, that her attorneys caused the delay over her
objections, that she repeatedly asserted her right to a speedy trial, and that the delay resulted in
prejudice because she remained in custody while awaiting trial. Br. Supp. Am. Pet. (ECF No. 49)
at 7-8.

PAGE 6 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 7 of 18

In her appellate brief on direct appeal, Petitioner raised as her Third Assignment of Error:
“[t]rial court exercised a lack ofjudicial notice when the defendant did not waive her right to a
quick and speedy trial on February 10th, 2015.” Resp’t Ex. 116 at 19. Citing the trial court’s
review of Gutzbezahl’s motion for a continuance pursuant to Or. Rev. Stat. § 136.295,
Petitioner argued that “[t]he trial court denied [her] a quick and speedy trial on Feb[r]uary 10th,
2015.” Resp’t Ex. 116 at 19. Petitioner further claimed that Or. Rev. Stat. § 136.295 “conflicts
with the Sixth Amendment,” and that she “never waived her right to a quick and speedy trial.”
Resp’t Ex. 116 at 19-20. Petitioner thus alleged that she was unlawfully detained from February
10, 2015 to April 7, 2015 while awaiting trial. Id. at 20.
In response, the State argued that Petitioner had not preserved the Third Assignment of
Error, and did not request plain error review on appeal. Resp’t Ex. 117 at 8. The State
nevertheless addressed the merits of the claim, arguing that the trial court did not violate
Petitioner’s speedy trial rights because her trial began within 180 days as required under Or.
Rev. Stat. § 136.295. Resp’t Ex. 117 at 9. The State further argued that a delay of less than six
months, primarily at the request of Petitioner’s attorneys, was not unreasonable under the Oregon
Constitution or the United States Constitution. Id. at 10.
Respondent here argues that Petitioner failed fairly to present Ground (c) to the highest
state court because she neglected to preserve the issue in the trial court, and failed to request
plain error review on appeal. Resp. Am. Pet. at 8. Petitioner does not deny that she failed to
preserve her claim, nor does she refute Respondent’s assertion that she did not request plain error
review.
Generally, Oregon law requires an appellant to preserve her claims in the trial court
before raising such claims to the Oregon Court of Appeals. See Or. R. App. P. 5.45(1)

PAGE 7 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 8 of 18

(instructing that “[n]o matter claimed as error will be considered on appeal unless the claim of
error was preserved in the lower court ....”). If a litigant fails to preserve her claims in the lower
court, those claims are waived. Id.; cf Ramirez v. State of Oregon, 214 Or. App. 400, 401 (2007)
(noting that all grounds for post-conviction relief must be asserted in the petition, and any
grounds “not so asserted are deemed waived”). “Under Oregon’s plain error doctrine, however,
an appellate court may address a defaulted argument if the trial court committed error apparent
on the face of the record.” Smith v. Or. Bd. ofParole & Post-Prison Supervision, 736 F.3d 857,
860 (9th Cir. 2013) (citing State v. Ramirez, 343 Or. 505, 512-13 (2007)). The decision to
consider plain error is left to the discretion of the Oregon Court of Appeals. Or. R. App. P.
5.45(1) (noting that the appellate court may, in its discretion, consider plain error).
Determining whether to review an unpreserved claim of error requires a two-step
analysis. First, the appellate court must determine if the error (1) is “one of law”; (2) is obvious
and “‘not reasonably in dispute’”; and (3) appears on the face of the record without requiring the
reviewing court to go beyond the record to identify the error or to choose between competing
inferences. State v. Tilden, 252 Or. App. 581, 590 (2012) (quoting State v. Brown, 310 Or. 347,
355 (2007)). If plain error is identified, the appellate court must “‘exercise its discretion to
consider or not to consider the error,” State v. Fults, 343 Or. 515, 521 (2007) (en banc) (quoting
Ailes v. Portland Meadows, Inc., 312 Or. 376, 381 (1991)), taking into account “the competing
interests of the parties; the nature of the case; the gravity of the error; the ends ofjustice in the
particular case; how the error came to the court’s attention; and whether the policies behind the
general rule requiring preservation of error have been served in the case in another way.” Ailes,
312 Or. at 382 n.6. If the reviewing court elects to consider the error, it “must articulate its
reasons for doing so.’” Fults, 343 Or. at 521 (quoting Ailes, 312 Or. at 381).

PAGE 8 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 9 of 18

The appellant generally bears the burden of explaining “why an error satisfies the
requisites of plain error and ... why [the Court] should exercise [its] discretion to correct that
error.” Tilden, 252 Or. App. at 589; see also Or. R. App. P. 5.45(4)(b) (providing that “[w]here a
party has requested that the court review a claimed error as plain error, the party must identify
the precise error, specify the state of the proceedings when the error was made, and set forth
pertinent quotations of the record where the challenged error was made”). Thus, the Oregon
Court of Appeals “ordinarily will not proceed to the question of plain error unless an appellant
has explicitly asked” it to do so. Tilden, 252 Or. App. at 589; see also Or. R. App. P. 5.45(7)
(instructing that the appellate court “may decline to exercise its discretion to consider plain error
absent a request explaining the reasons that the court should consider the error”).
Petitioner did not explicitly request plain error review from the Oregon Court of Appeals,
but nevertheless contends that her speedy trial claim was properly before the Oregon Court of
Appeals pursuant to Tilden. Br. in Supp. at 4-6. In Tilden, the Oregon Court of Appeals
considered an unpreserved assignment of error despite the appellant’s failure explicitly to request
plain error review. The Oregon Court of Appeals determined that it could properly address plain
error, despite the absence of an express request to do so, because the appellant had “satisfied the
requisites of ORAP 5.45 regarding a claim of error apparent on the record and ... [had] met his
burden of demonstrating that type of error in his opening brief.” Tilden, 252 Or. App. at 589.
Petitioner argues that like the appellant in Tilden, she complied with Oregon’s appellate rules
governing claims of error apparent on the record, and properly included argument in her
appellate brief as to why the alleged error met the plain error standard. Br. in Supp. at 5.
Petitioner thus claims that she fairly presented the speedy trial claim to the state courts, and that
pursuant to Smith v. Oregon Board ofParole and Post-Prison Supervision, the Oregon Court of

PAGE 9 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 10 of 18

Appeals’ “cursory rejection” of her speedy trial claim, without specific reliance on a state
procedural rule, satisfies the exhaustion requirement. Id.
Even if this Court assumes that Petitioner’s speedy trial claim was properly before the
Oregon Court of Appeals on plain error review pursuant to Tilden, Petitioner nevertheless
presented her claim in a procedural context in which its merits would not be considered absent
special circumstances. See State v. Gornick, 340 Or. 160, 166 (2006) (noting that plain error
review is conducted “only in rare and exceptional cases,” and must be utilized with “utmost
caution”); Steffler v. Belleque, Case No. 3:09-cv-01371-MA, 2013 WL 182873, at *3 (D. Or.
Jan. 17, 2013) (holding that the petitioner did not fairly present his claim to Oregon courts on
direct appeal and his claim was therefore procedurally defaulted, because “[presentation of a
claim to the Oregon Court of Appeals on a plain error basis ... is not a fair presentation for
exhaustion purposes because the claim’s merits will not be considered absent special and
important reasons to do so” (citing Castille, 489 U.S. at 351)). As such, Petitioner failed fairly to
present Ground (c) to the Oregon courts, and because Petitioner can no longer preserve and
present Ground (c) in state court, the claim is procedurally defaulted. See, e.g., Glasscock v.
Taylor, Case No. 2:14-cv-016-SI, 2017 WL 1735173, at *7-8 (D. Or. Apr. 25, 2017) (holding
that the petitioner procedurally defaulted a claim raised as “plain error” to the Oregon Court of
Appeals because he raised the claim in a procedural context in which the merits would not be
considered absent special circumstances, and could no longer raise the claim), aff’d, 740 F.
App’x 566 (9th Cir. 2018).
Furthermore, Petitioner’s reliance on Smith is misplaced. In Smith, the Ninth Circuit held
that where the Oregon Court of Appeals affirmed with only a cursory explanation, it was “quite
plausible” that the Court of Appeals reached the merits of both the petitioner’s unpreserved

PAGE 10 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 11 of 18

federal claim and preserved state claim because the Court of Appeals did not “intimatfe] that its
disposition rested on state procedural grounds.” Smith, 736 F.3d at 861. The analysis in Smith
focused on whether the Oregon Court of Appeals had rejected a claim based upon an
independent and adequate state procedural rule, and the Ninth Circuit applied a presumption that
the Court of Appeals adjudicated the claim on the merits. Id.
Here, the issue is whether Petitioner fairly presented his claim, not whether the Oregon
Court of Appeals rejected the claim on state procedural grounds, and the same presumption does
not apply. See Glasscock, 2017 WL 1735173, at *7 (distinguishing Smith on the ground that “this
is an issue of fair presentation, not an analysis of whether the Oregon Court of Appeals invoked
an independent and adequate state procedural rule”). Unlike in Smith, here there is no reason to
believe that the Oregon Court of Appeals conducted a plain error review of Petitioner’s federal
speedy trial claim, without comment, where Petitioner did not explicitly request plain error
review and where Oregon rules allow plain error review only under exceptional circumstances
and require that the Court of Appeals articulate its reasons for considering plain error. See id.
(holding that “Petitioner did not fairly present on appeal his federal constitutional claim” and
finding that “[ujnlike in Smith, Petitioner here did not attempt to prove his right to present a
defense claim as ‘plain error’”). Thus, the Court “declines to apply the court-created presumption
that the state court proceeded to the merits of the federal claim.” Id. \ see also Caughlin v. Premo,
Case No. 3:09-cv-01038-KI, 2016 WL 676375, at *4-5 (D. Or. Feb. 18, 2016) (distinguishing
Smith and holding that “[i]n the absence of some ambiguity as to whether the Court of Appeals’
affirmance without opinion was ‘interwoven with federal law,’ this Court declines to apply the
court-created presumption that the state court proceeded to the merits of the federal claim.”); cf.
Coleman, 501 U.S. at 735 (explaining that to apply the merits presumption, the state court

PAGE 11 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 12 of 18

decision “must fairly appear to rest primarily on federal law or to be interwoven with federal
law”).
In sum, Petitioner failed fairly to present her federal constitutional speedy trial claim on
appeal because she presented it to the Oregon Court of Appeals in a procedural context in which
the Court of Appeals would not consider its merits absent special circumstances. The claim is
now procedurally defaulted because Petitioner is time-barred from raising the claim in state
court, and Petitioner has not demonstrated cause for the default and actual prejudice, nor that
failure to consider the claim will result in a fundamental miscarriage of justice. Therefore, the
district judge should deny habeas relief on Ground (c).
II.

RELIEF ON THE MERITS
Even if Petitioner’s speedy trial claim is not procedurally defaulted, Petitioner is not

entitled to habeas relief on the merits of her claim.
A.

Legal Standards
1.

Deference to State Court Decisions

The Antiterrorism and Effective Death Penalty Act (“AEDPA”) imposes “a difficult to
meet and highly deferential standard for evaluating state-court rulings, which demands that statecourt decisions be given the benefit of the doubt.” Cullen v. Pinholster, 563 U.S. 170, 181 (2011)
(internal quotations and citations omitted). Under the AEDPA, a federal court may not grant
habeas relief unless the petitioner demonstrates that such denial was “contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States” or was “based on an unreasonable determination of the facts in light
of the evidence presented in the state court proceeding.” 28 U.S.C. § 2254(d).

PAGE 12 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 13 of 18

A state court decision is “contrary to” clearly established federal law if it “applies a rule
that contradicts the governing law set forth in [the Supreme Court’s] cases,” or if it “confronts a
set of facts that are materially indistinguishable from a decision of [the Supreme] Court and
nevertheless arrives at a result different from [that] precedent.” Williams v. Taylor, 529 U.S. 362,
405-06 (2000). A state court unreasonably applies clearly established federal law if it correctly
identifies the governing legal principle but misapplies that principle to the facts at hand. Id. at
407 (confirming that an unreasonable application occurs where “the state court identifies the
correct governing legal rule from [the Supreme Court’s] cases but unreasonably applies it to the
facts of the particular state prisoner’s case”). The “unreasonable application” clause requires the
state court’s decision to be more than merely erroneous or incorrect. Id. at 411 (holding that
habeas relief may not be granted “simply because that court concludes in its independent
judgment that the relevant state-court decision applied clearly established federal law
erroneously or incorrectly”). Rather, the state court’s application of clearly established federal
“must also be unreasonable.” Id. at 409.
“Determining whether a state court’s decision resulted from an unreasonable legal or
factual conclusion does not require that there be an opinion from the state court explaining the
state court’s reasoning.” Harrington v. Richter, 562 U.S. 86, 98 (2011). Where a state court
decision is issued without explanation, a habeas court “must determine what arguments or
theories supported or,... could have supported, the state court’s decision; and then it must ask
whether it is possible fairminded jurists could disagree that those arguments or theories are
inconsistent with the holding in a prior decision of [the Supreme Court].” Id. at 102. A habeas
petitioner therefore must still meet her burden “by showing there was no reasonable basis for the
state court to deny relief.” Id.

PAGE 13 - FINDINGS AND
\ RECOMMENDATION

Case 3:18-cv-00649-SB Document 52 Filed 07/27/20 Page 14 of 18

2.

Sixth Amendment Right to a Speedy Trial

The Sixth Amendment guarantees the right of an accused to a speedy trial. U.S. Const.
amend VI. Unlike other procedural rights, the right to a speedy trial is “a more vague concept”
because it is “impossible to determine with precision when the right has been denied.” Barker v.
Wingo, 407 U.S. 514, 521 (1972). Accordingly, to determine whether the right to speedy trial has
been violated, the Court must assess four factors: “[1] Length of delay, [2] the reason for the
delay, [3] the defendant’s assertion of his right, and [4] prejudice to the defendant.” Id. at 530.
No factor is by itself “a necessary or sufficient” condition to find a deprivation of the right to a
speedy trial. See id. at 533 (explaining that the four factors “are related . . . and must be
considered together with such other circumstances as may be relevant”).
To trigger a speedy analysis under Barker, “an accused must allege that the interval
between accusation and trial has crossed the threshold dividing ordinary from ‘presumptively
prejudicial’ delay.” Doggett v. U.S., 505 U.S. 647, 651-52 (1992) (citing Barker, 407 U.S. at
530-31). If the accused makes such a showing, “the court must then consider, as one factor
among several, the extent to which the delay stretches beyond the bare minimum needed to
trigger judicial examination of the claim.” Id. at 652. Whether the length of a given delay can be
considered presumptively prejudicial “is necessarily dependent upon the peculiar circumstances
of the case.” Barker, 407 U.S. at 530-31.
B.

Analysis

Petitioner argues that given the facts of her case, all fairminded jurists would conclude
that she was denied a speedy trial in violation of the Sixth Amendment, and thus the state court’s
contrary conclusion was objectively unreasonable. Br. in Supp. at 9. In response, Respondent

PAGE 14 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB Document 52

Filed 07/27/20 Page 15 of 18

argues that the pretrial delay in this case is insufficient to trigger an inquiry under Barker, and
that Petitioner nevertheless is responsible for the delay. Resp. to Am. Pet. at 10-11.
Law enforcement took Petitioner into custody on October 28, 2014, where she remained
until trial commenced on April 7, 2015. Resp’t Ex. 112 at 124. Thus, less than six months
elapsed between Petitioner’s arrest and the beginning of her trial. Given the nature and number
of charges leveled against Petitioner, the state court reasonably could have concluded that a
delay of less than six months was not presumptively prejudicial and therefore did not trigger the
Barker analysis. See Doggett, 505 U.S. at 652 n.l (noting that, depending on the charges, post­
accusation delay generally is found to be presumptively prejudicial “at least as it approaches one
year”); see also U.S. v. Chavez-Torres, 53 F. App’x 840, 842 (9th Cir. 2002) (holding that “no
peculiar or special circumstances” warranted reaching the'additional Barker factors with delay of
less than six months); U.S. v. Beamon, 992 F.2d 1009, 1013 (9th Cir. 1993) (acknowledging that
delays approaching one year typically satisfy the “presumptively prejudicial” threshold); but see
U.S. v. Valentine, 783 F.2d 1413, 1417 (9th Cir. 1986) (six-month delay on a single count of
felon in possession of a firearm sufficient to trigger analysis of additional Barker factors); U.S. v.
Simmons, 536 F.2d 827, 831 (9th Cir. 1976) (noting that a six-month delay on two counts of
forgery was a “borderline case,” but holding that such delay was sufficient to trigger the Barker
inquiry).
Even if a delay of less than six months could be considered sufficiently prejudicial to
trigger an analysis of the other Barker factors, on balance those factors weigh against Petitioner.
The delay here was largely attributable to Petitioner, not the government. The trial court granted
only two continuances of Petitioner’s trial date, both at the request of Petitioner’s attorneys, to
allow time to evaluate if Petitioner was able to aid and assist, to allow Petitioner to substitute

PAGE 15 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB Document 52 Filed 07/27/20 Page 16 of 18

counsel, and to allow newly appointed counsel time to prepare for trial. Thus, the second Barker
factor weighs against Petitioner. Further, although Petitioner asserted her right to a speedy trial,
her assertions must be viewed in light of her other conduct, and much of the delay here resulted
from her own conduct, including firing her appointed lawyer. See U.S. v. Lam, 251 F.3d 852, 859
(9th Cir. 2001) (“Here, because we find that Lam’s counsel’s actions are properly attributable to
Lam, his successive requests for continuances considerably diminish the weight of Lam’s
assertions of his speedy trial right.”). Thus, the third Barker factor weighs only slightly in
Petitioner’s favor, and she has submitted no evidence in support of her allegation that the pre­
trial delay of less than six months resulted in prejudice by hampering her defense or causing
anxiety and concern (i.e., the fourth Barker factor). See U.S. v. Sutcliffe, 505 F.3d 944, 957 (9th
Cir. 2007) (“While Defendant argues that he suffered from anxiety and concern due to his long
period of pre-trial incarceration, we conclude, under the circumstances of this case, that this
allegation is insufficient to demonstrate that Defendant suffered impermissible prejudice as a
result of the delays he caused.”).
On balance, in light of the relatively benign pretrial delay, Petitioner’s role in causing the
delay, and a lack of demonstrable prejudice, the Barker factors do not support a finding that
Petitioner was denied her right to a speedy trial here. See U.S. v. Cramer, Nos. 3:17-cr-267-SI
and 3:17-cr-271-SI, 2019 WL 470902, at *7 (D. Or. Feb. 6, 2019) (applying Barker analysis to
conclude 21-month delay was not a speedy trial violation, noting that “[ajfter applying the
Barker balancing test, the Supreme Court and the Ninth Circuit have held that similar—and even
longer—delays have not violated the Sixth Amendment[,]” and citing Supreme Court and Ninth
Circuit cases finding no speedy trial violations despite five-year, 90-month, 30-month, 22-month,
and 20-month delays) (citations omitted). Thus, the Oregon courts’ denial of Petitioner’s speedy

PAGE 16 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 17 of 18

trial claim was not based on an unreasonable determination of the facts nor contrary to clearly
established federal law, and Petitioner is not entitled to habeas relief on Ground (c). See Hale v.
Franke, No. 3:1 l-cv-00811-CL, 2013 WL 3348430, at *4 (D. Or. June 28, 2013) (“In this case,
the state court’s rejection of petitioner’s speedy trial claim was not an unreasonable application
of the Barker test and therefore entitled to deference by this court.”).
III.

CLAIMS PETITIONER DID NOT ADDRESS
Petitioner does not address the claims alleged in Grounds (a) and (b) of her Amended

Petition. Additionally, Petitioner does not attempt to refute Respondent’s argument that both
Grounds (a) and (b) are procedurally defaulted, and that she has not demonstrated cause and
prejudice to excuse the procedural default, or that a fundamental miscarriage of justice would
result if the Court declined to address those grounds. Accordingly, the district judge should deny
habeas relief on Grounds (a) and (b) because they are procedurally defaulted and because
Petitioner has failed to sustain her burden to demonstrate why she is entitled to habeas relief. See
Silva v. Woodford, 279 F.3d 825, 835 (9th Cir. 2002) (noting that the petitioner carries the
burden of proving her case).
CONCLUSION
Based on the foregoing, the district judge should DENY the Amended Petition for Writ
of Habeas Corpus (ECF No. 34) with prejudice, and decline to issue a Certificate of
Appealability because Petitioner has not made a substantial showing of the denial of a
constitutional right. See 28 U.S.C. § 2253(c)(2).
SCHEDULING ORDER
The Court will refer its Findings and Recommendations to a district judge. Objections, if
any, are due within fourteen (14) days. If no objections are filed, the Findings and

PAGE 17 - FINDINGS AND RECOMMENDATION

Case 3:18-cv-00649-SB

Document 52

Filed 07/27/20

Page 18 of 18

Recommendation will go under advisement on that date. If objections are filed, a response is due
fourteen (14) days after being served with a copy of the objections. When the response is due or
filed, whichever date is earlier, the Findings and Recommendation will go under advisement.
DATED this 27th day of July, 2020.
STACIE BECKERMAN
United States Magistrate Judge

PAGE 18 - FINDINGS AND RECOMMENDATION

